HHS/OIG, Audit -"Adequacy of Medicaid Payments to Albany County Nursing Home,"(A-02-02-01020)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Adequacy of Medicaid Payments to Albany County Nursing Home," (A-02-02-01020)
June 17, 2004
Complete
Text of Report is available in PDF format (517 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report points out that total Medicaid payments initially made to the nursing home were adequate
to cover its operating costs. During the 3 years ended September 30, 2001, these payments totaled $132 million:  $41
million in Medicaid per diem payments and $91 million in enhanced payments available under the upper payment limits.  During
the same period, the nursing homes total operating costs were about $70 million.  However, because the State and
county required the nursing home to return about 90 percent of its upper-payment-limit funding, the nursing home was allowed
to retain only about $50 million--$20 million less than its total operating costs.  As designed, the States upper-payment-limit
funding approach benefited the State and the county more than the nursing home.  The State received $20 million more
than it expended for the nursing homes Medicaid residents and the county was reimbursed 100 percent for its upper-payment-limit
contribution.  In effect, the Federal Government provided almost all of the nursing homes Medicaid funding, contrary
to the principle that Medicaid is a shared responsibility of the Federal and State Governments.  Another result was
that the nursing home ended up significantly understaffed, which may have affected the quality of care provided to its
residents.  We recommended that the State (1) seek necessary authority to calculate the nursing homes Medicaid per
diem rate to more closely reflect operating costs, and (2) allow the nursing home to retain sufficient funding so that
it can attract, hire, and retain sufficient nursing staff to provide and adequate level of care to its residents.